WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-1502

JetBlue Airways Corporation

Abdikarim Karrani
(Petitioner) Vv. (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Iam filing this waiver on behalf of all respondents.

oO lonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature: (Mathew Harrington Dae tava’ wines ore

Date: 5/25/21

(Type or print) Name Mathew Lane Harrington

© m. O Ms. O mrs. O Miss
Fim Stokes Lawrence, P.S.
Address [1420 5th Avenue, Suite 3000 7 7

City & State Seattle, WA 7 - Zip 98101

 

Phone ‘206-626-4000 Email Mathew.Harrington@stokeslaw.com

 

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

 

 

|Jack Sheridan, The Sheridan Law Firm, Hoge Building, Suite 1200, 705 Second Avenue, Seattle, WA |
cc: |98104 jack@sheridanlawfirm.com
